                                                            Unill'd State:;. Department of State
                                                            and Ih~ Broadcasling Board of Governors

                                                            OfficI' of Inspector Genera l




                 Independent Review of the U.S. Department of State
                     Accounting ofFY 2011 Drug Control Funds
                          and Related Performance Report
                               AUDIFM -12-19, January 31, 2012

        The Office of Inspector General (O IG) has reviewed the management assertions included
in the U.S. Department of State (Department) Accounting of FY 201 I Drug Control Funds and
Related Peljormance Report. This report was prepared by the Bureau of International Narcotics
and Law Enforcement Affairs in accordance with the Office of National Drug Control Policy's
(ONDCP) circular Drug Control Accounting, dated May 1,2007. Department management is
responsible for the assertions included in the report.

        OIG's review was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants. A review is substantially less in scope than
an examination, the objective of which is the expression of an opinion on management's
assertions. Accordingly, we do not express such an opinion.

       Based on OIG 's review, nothing came to OIG's attention that caused it to believe that the
management assertions included in the report were not fairly stated, in all material respects,
based upon ONDCP's circular Drug Control Accounting.

       This OIG report is intended solely for the infonnation and use of Department
management, ONDep, and the U.S. Congress, and it is not intended to be and should not be used
by anyone other than these specified parties.




Harold W. Geisel
Deputy Inspector General
